CERTIFICATE OF COMPLIANCE
Case No. 20-440
Caption: Minerva Surgical, Inc. v. Hologic, Inc.
Cytyc Surgical Products, LLC
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 6,290 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 1, 2021.

Record Press, Inc.

Sworn to before me on
March 1, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No . 01OS6101366
· gs Count
Com

